January 6, 2020
Via Electronic Filing and Hand Delivery
Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: No. 19-797, City of St. Louis, Missouri, et al. v. Meier
Dear Mr. Bickell:
I am co-counsel for respondent in the above-referenced case. A petition for
certiorari was docketed on December 23, 2019. Unless extended by the Court, the brief in
opposition would be due January 22, 2020. Pursuant to Rule 30.4, I am writing to request
a 30-day extension. With the requested extension, the brief in opposition would be due
February 21, 2020.
This extension is necessary because I have only recently been engaged as cocounsel. A 30-day extension will allow sufficient time to review the record below,
research the issues presented in the petition, and prepare an opposition that will be
helpful to the Court, while also attending to deadlines in other matters.
For these reasons, I ask that a 30-day extension be granted. Thank you for your
attention to this matter.
Sincerely,
s/ Michael T. Kirkpatrick
Michael T. Kirkpatrick
Counsel for Respondent
cc:

Robert H. Dierker Jr., Counsel of Record for Petitioners
Via email: dierkerr@stlouis-mo.gov

